         Office of Inspector General




July 20, 2006

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Audit Report – Mail Transport Equipment Service Center Network –
         Proposed Change to Quality Inspection and Payment Authorization Controls
         (Report Number NL-AR-06-007)

The mail transport equipment service center (MTESC) network is a system of
22 contractor-operated service centers designed to supply mail transport equipment to
mail processing facilities nationwide. This report is one in a series of reports that
presents results from our self-initiated nationwide MTESC audit (Project Number
06XG008NL001). Our audit objective is to follow-up on previous recommendations and
identify opportunities to increase efficiency and save money.

Each MTESC is staffed by an “operating contractor” who runs the facility and an
independent “quality contractor” who inspects the operating contractor’s work to ensure
work is done properly, equipment meets standards, and payment is appropriate. Each
MTESC has many operating processes examined by quality contractor personnel.
One such process is the procedure for inspecting and approving palletized products,
which include such items as mailbags and mail trays.

Operating contactors believe the current pallet inspection and payment authorization
process slows down operations by creating an inspection “bottleneck.” As a result, the
U.S. Postal Service is considering a change to the existing process. They are testing
the proposed quality assurance change at the Minneapolis, Minnesota, MTESC. During
the course of our ongoing MTESC audit, Postal Service officials asked us to examine
the proposed change. This report responds to that specific request.

We concluded that the proposed change does not provide the independent quality
control needed to assure that the operating contractor’s work is done properly, that
equipment meets standards, or that payment should be approved. Although the
proposed change document explains it will not modify the inspection criteria currently in
place and quality contractors will continue to authorize payment for every pallet
produced, it does not sufficiently explain how inspectors will effectively accomplish
those important control functions. Further, the change stipulates the manual inspection
entries quality clerks currently make will no longer be required. Instead, the computer
system will default to automated inspection assumptions such as “serviceable,”
“standard pallet quantity,” or “approve.”
We are concerned that the proposed change could significantly erode some of the
robust internal controls Postal Service management previously established, possibly
resulting in overstated or unsupported invoices or work invoiced as properly completed
when not properly performed. We recommended that management postpone the
proposed change until they address internal control concerns.

Management agreed with our recommendations. Management stated that they placed
the proposed change on hold, and said they would advise us of any additional system
modifications. Management’s comments and our evaluation of these comments are
included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
director, Transportation, or me at (703) 248-2300.

 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Anthony M. Pajunas
    Beverly A. Van Soest
    Dana L. Austin
    Steven R. Phelps
Mail Transport Equipment Service Center Network –                                NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls


                                      INTRODUCTION
 Background                   The mail transport equipment service center (MTESC)
                              network is a system of 22 contractor-operated service
                              centers designed to supply mail transport equipment to mail
                              processing facilities nationwide.




      The Minneapolis,
     Minnesota, MTESC,
       February 2006.

       The Minneapolis
       MTESC is one of
    22 contractor-operated
     facilities nationwide.




 Prior Audit Coverage         Our audit report, Adequacy of Mail Transport Equipment
                              Center Network Internal Controls (Report Number TR-AR-
                              01-001, dated October 31, 2000), concluded that controls
                              over contractor work were insufficient. The report identified
                              the following control weaknesses:

                                  •   Palletized products such as mailbags, trays, sleeves,
                                      and lids were reported as processed when they had
                                      not been processed.

                                  •   Inspection placards on processed products were
                                      erroneously replaced and the errors may have
                                      caused additional charges.

                                  •   During a 10-day period at one service center the
                                      weight of processed mailbags may have been
                                      overstated by about 20 percent; the weight of
                                      processed trays, sleeves, and lids overstated by
                                      more than 30 percent; and the 10-day processing




                                                 1
Mail Transport Equipment Service Center Network –                                NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls



                                     discrepancies may have resulted in overcharges of
                                     about $13,000.

                              Our audit concluded that many issues identified were due to
                              insufficient separation of duties and quality assurance, and
                              that the independent quality assurance function was not
                              sufficiently staffed. Our audit also concluded the U.S.
                              Postal Service could reduce the risk of paying for work that
                              was not performed by verifying contractor work. We
                              recommended, in part, that the Postal Service fully staff the
                              independent quality assurance function. Postal Service
                              Headquarters agreed with our recommendation.




    Under current policy,
   quality assurance clerks
        are stationed at
      inspection stations
     throughout MTESCs,
    where they inspect the
     quality of “operating
    contractor” work and
    authorize payment for
         work properly
          performed.

   Minneapolis, Minnesota,
          MTESC,
     February 23, 2006.




                              As a result, in addition to the “operating contractor” who
                              actually runs the service center, each MTESC is now fully


                                                 2
Mail Transport Equipment Service Center Network –                                    NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls

                                 staffed by a “quality contractor” who provides at least
                                 one quality process auditor, plus quality clerks at inspection
                                 stations throughout the facility.

 Current Procedure               The quality contractor is independent of the operating
                                 contractor. The job of quality contract personnel is to
                                 provide assurance that the operating contractors properly
                                 do their work, that equipment meets standards, and that
                                 payment is appropriate. Quality auditors conduct random
                                 quality audits and supervise the quality clerks. The quality
                                 clerks inspect all completed operating contractor work and
                                 then authorize payment.

                                 Each MTESC has many operating processes quality
                                 auditors and clerks examine. One such quality process is
                                 the procedure for inspecting palletized products.



    “Palletized products”
   include mailbags, trays,
      sleeves, and lids.

   This picture shows letter
     trays shrink-wrapped
    and stacked on a pallet
     at the Dallas MTESC,
         April 11, 2006.

      Independent MTESC
   quality assurance clerks
    are required to inspect
   every pallet to verify that
        piece counts are
   accurate, that equipment
    is serviceable, and that
       pallets are properly
    stacked and packaged.




                                 The U.S. Postal Service Mail Transport Equipment Service
                                 Center Quality Department Manual, dated June 30, 2004,
                                 currently requires quality clerks to inspect all completed
                                 pallets. Specifically, quality clerks must verify that:

                                    •   Every pallet has the right number of mailbags, trays,
                                        sleeves, or lids.



                                                  3
Mail Transport Equipment Service Center Network –                                  NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls


                                  •   The equipment is serviceable.

                                  •   Pallets are properly stacked and packaged.

                               After quality clerks inspect and verify pallet quality, they
                               approve the work and authorize payment by making
                               appropriate entries into the computerized Mail Transport
                               Equipment Support System (MTESS). The quality clerk
                               uses the system to print an inspection placard and
                               authorizes the pallet for payment. The operating contractor
                               then shrink-wraps the pallet, affixes the placard, and stages
                               it for transport.




      After quality clerks
      inspect pallets and
    authorize payment for
     work completed, they
    use the MTESS to print
     an inspection placard
   and attach the placard to
      the shrink-wrapped
             pallet.

        Dallas MTESC,
        April 11, 2006.




 Proposed Change               Operating contactors believe the quality assurance
                               inspection process slows down MTESC operations by
                               creating an inspection “bottleneck.” As a result, the Postal
                               Service is considering a proposed change to existing pallet
                               inspection and payment authorization controls and they are
                               testing the proposal at the Minneapolis, Minnesota, MTESC.
                               The change is intended to reduce operational delays,
                               slowdowns, or “bottlenecks” at the quality inspection station.
                               The proposed change document explains:

                                  •   The manual inspection entries quality clerks currently
                                      make will no longer be required before inspection
                                      placards are produced.



                                                 4
Mail Transport Equipment Service Center Network –                                NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls



                                   •   Instead, the system will default to automated
                                       inspection assumptions such as “serviceable,”
                                       “standard pallet quantity,” or “approve.”

                                   •   Based on the default inspection assumptions,
                                       operating contractor employees will use the computer
                                       to automatically generate an inspection placard.

                                The proposed change document asserts that eliminating
                                manual handwritten entries such as inspector identification
                                numbers, pallet quantity, and pallet approval status before
                                inspection placards are produced will improve accuracy and
                                operating contractor efficiency.


     Inspection placards
  contain such information
  as the type of equipment
     (plastic trays in this
   case), the quantity, and
    weight of the items on
      the pallet, and the
   employee identification
    number of the person
  who prepared the pallet.

    Under current policy,
   inspection placards are
     generated only after
  quality clerks inspect the
            pallet.

     Under the proposed
    change, quality clerks
     will not see the pallet
   until after the inspection
    pallet has already been
   generated and the pallet
        shrink-wrapped.


                                Postal Service Headquarters is aggressively pursuing
                                opportunities to improve efficiency and reduce MTESC
                                network costs. Accordingly, during the course of our
                                ongoing MTESC audit, officials asked us to examine the
                                proposed change.




                                                 5
Mail Transport Equipment Service Center Network –                                NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls



 Objective, Scope, and        This report responds to that specific request and is one in a
 Methodology                  series of reports from our MTESC audit. Our audit objective
                              is to follow-up on previous recommendations and identify
                              opportunities to increase efficiency and save money. We
                              are providing this report to advise management of our
                              opinion regarding the proposed change to quality inspection
                              and payment authorization controls.

                              We performed our work in close coordination with the
                              Network Operations Management MTESC assessment
                              team. During our work, we interviewed Postal Service
                              Headquarters officials in Network Operations Management
                              and Supply Management. We examined applicable Postal
                              Service policies, procedures, and directives, including the
                              Mail Transport Equipment Service Center USPS Quality
                              Department Manual, dated June 30, 2004, and the draft
                              change to the Postal Service MTESS Standard Operating
                              Procedure (SOP), dated January 19, 2006. We visited the
                              Minneapolis, Minnesota, MTESC; observed testing of the
                              proposed change; interviewed operating contractor
                              employees; interviewed quality assurance employees; and
                              photographed operations. We consulted with subject-matter
                              experts, discussed our observations and conclusions with
                              management officials, and included their comments where
                              appropriate. We did not audit or comprehensively validate
                              MTESS data; however, we noted several control
                              weaknesses, which we will discuss in the Audit Results
                              section of this report.

                              We conducted work associated with this report from
                              February through July 2006 in accordance with generally
                              accepted government auditing standards and included such
                              tests of internal controls as we considered necessary under
                              the circumstances.




                                                 6
Mail Transport Equipment Service Center Network –                                    NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls


                                      AUDIT RESULTS
 Proposed Quality             The proposed change removes the quality clerk from the
 Assurance Change to          inspection station and stipulates the manual inspection
 the Standard                 entries quality clerks currently make will no longer be
 Operating Procedure          required. Instead, the computer system will default to
                              automated inspection assumptions such as “serviceable,”
                              “standard pallet quantity,” or “approve.”

                              Consequently, the proposed change does not provide the
                              independent quality control needed to assure the operating
                              contractors have properly done their work; each pallet has
                              the right number of mailbags, trays, sleeves, or lids;
                              equipment is serviceable; or payment should be approved.




         Letter trays,
     shrink-wrapped and
      stacked on a pallet
    shipped by truck from
   the St. Louis, Missouri,
            MTESC
        August 3, 2005.




                                  INSPECTION PLACARD




                              Although the proposed change document states that it will
                              not modify the inspection criteria currently in place and that
                              quality contractors will continue to authorize payment for
                              every pallet produced, the change document stipulates only
                              that the quality clerks will affix the placard to the pallet after
                              the pallet is shrink-wrapped and banded. It does not
                              sufficiently explain where inspectors will be located or how
                              they will effectively perform their inspection and payment


                                                 7
Mail Transport Equipment Service Center Network –                                         NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls

                              approval functions. For example, the proposed change
                              document acknowledges the 22 MTESCs in the nationwide
                              network have different layouts, product flows, and
                              equipment setups and that, as a result, the physical location
                              where quality clerks will accept work and authorize payment
                              may differ.

                              We have other concerns with the proposed pallet inspection
                              and payment authorization change. For example, the
                              current procedure requires quality clerks to inspect,
                              approve, and authorize payment for every pallet produced.
                              The proposed change would cause the computer system to
                              default to “approve,” based on the assumption that a quality
                              auditor performed an “in-process” audit prior to the pallet
                              reaching final inspection. However, the approval default is
                              misleading because, unlike quality clerks who are obligated
                              to inspect, approve, and authorize payment for all finished
                              pallets, quality auditors are only required to inspect
                              randomly selected samples. Specifically, current policy
                              requires that quality auditors complete 25 “in-progress”
                              audits and 20 “finished goods” audits per shift. The
                              Minneapolis MTESC operates one shift per day. Our
                              analysis of their single-shift operation determined the facility
                              produces an average of 560 pallets per day.

                                              Minneapolis MTESC Daily Pallet Inspection

                                    Total Average Daily Pallet Production        560      100%

                                    Required Daily Quality Auditor Inspections    - 45    - 8%

                                    Total Pallets Not Inspected                   515     92%

                              Since 92 percent of daily pallet production is not inspected
                              by independent quality assurance personnel before the
                              pallets are entered into the computer system as “approve,”
                              we believe there is a significant risk the proposed change
                              will allow work to be approved when pallets have not been
                              properly completed.

                              In response to the report we discussed earlier (Adequacy of
                              Mail Transport Equipment Center Network Internal Controls,
                              dated October 31, 2000), management established robust
                              internal controls. We believe the independent quality
                              inspection function needs to remain robust and the
                              proposed change could significantly erode some of the


                                                   8
Mail Transport Equipment Service Center Network –                                NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls

                              important controls management established, particularly
                              with regard to the separation of duties between quality
                              contractor personnel and operating contractor personnel.
                              We also believe the system generated defaults such as
                              “serviceable,” “standard pallet quantity,” or “approve” could
                              result in overstated or unsupported invoices and some work
                              invoiced as properly completed when it was not properly
                              performed.

 Cooperative Joint            On May 10, 2006, we met the Postal Service Headquarters
 Management – Audit           Network Operations Mail Transport Equipment manager
 Team Inspection              and toured the Minneapolis, Minnesota, MTESC test facility
                              to call attention to our concerns. As a result of our
                              cooperative inspection, management recognized the
                              problem with separating quality inspectors from the
                              inspection station and agreed with our recommendations.

 Recommendation               We recommend the vice president, Network Operations
                              Management:

                                  1. Postpone full implementation of the proposed change
                                     to the Mail Transport Equipment Support System
                                     pallet inspection and payment authorization
                                     procedure until management addresses separation of
                                     duty and other internal control concerns.

 Management’s                 Management agreed with our finding and recommendation.
 Comments                     In their formal response to our draft audit report,
                              management stated that they had already placed
                              network-wide implementation on hold, and said they would
                              advise us of any additional system modifications.
                              Management’s comments, in their entirety, are included in
                              the appendix.

 Recommendation                   2. Require manual input of actual pallet quality or
                                     inspection approval in the automated Mail Transport
                                     Equipment Support System instead of defaults such
                                     as “serviceable,” “standard pallet quantity,” or
                                     “approve.”

 Management’s                  Management agreed with our finding and recommendation.
 Comments                      In their formal response to our draft audit report,
                              management stated they would modify the system to enter
                              the true condition, such as serviceable, defective, or


                                                 9
Mail Transport Equipment Service Center Network –                                NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls

                              condemned, rather than allowing the system to default to an
                              automated assumed condition. Management also said they
                              would enter the number of units per pallets rather than
                              allowing the system to default to pallet preset quantities.
                              According to the MTESS support team, these changes will
                              be completed by August 2006.

 Evaluation of                Management’s comments are responsive to
 Management’s                 recommendations 1 and 2. Management’s actions, taken or
 Comments                     planned, should correct the issues identified in the findings.




                                                 10
Mail Transport Equipment Service Center Network –     NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls


              APPENDIX. MANAGEMENT’S COMMENTS




                                                 11
Mail Transport Equipment Service Center Network –     NL-AR-06-007
 Proposed Change to Quality Inspection and Payment
 Authorization Controls




                                                 12
